No. 19-1280
In the Supreme Court of the United States
__________________
THE IDAHO DEPARTMENT OF CORRECTION; HENRY
ATENCIO, in his official capacity as Director of the
IDOC; JEFF ZMUDA, in his official capacity as Deputy
Director of the IDOC; AL RAMIREZ, in his official
capacity as Warden of the Idaho State Correctional
Institution; and SCOTT ELIASON, M.D.,
Petitioners,
v.
ADREE EDMO, aka Mason Edmo,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

__________________
REPLY BRIEF FOR PETITIONERS
__________________

DYLAN A. EATON
J. KEVIN WEST
BRYCE JENSEN
PARSONS BEHLE & LATIMER
800 West Main Street
Suite 1300
Boise, Idaho 83702
Counsel for Petitioner
Scott Eliason, M.D.

August 24, 2020

LAWRENCE G. WASDEN
Attorney General State of Idaho
BRIAN KANE
Assistant Chief Deputy
MEGAN A. LARRONDO
Deputy Attorney General
BRADY J. HALL
Special Deputy Attorney General
Counsel of Record
MOORE ELIA KRAFT & HALL, LLP
P.O. Box 6756
Boise, Idaho 83707
(208) 336-6900
brady@melawfirm.net
Counsel for Petitioners
the Idaho Department of Correction
and Henry Atencio, Jeff Zmuda,
and Al Ramirez, in their official
capacities

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
IF THIS APPEAL IS NOT MOOT, THE COURT
SHOULD GRANT THE PETITION. . . . . . . . . . . 1
I. P E T I T I O N E R S ’
FIRST
QUESTION
PRESENTED INVOLVES IMPORTANT
CONSTITUTIONAL ISSUES THAT REACH
FAR BEYOND THE SPECIFIC FACTS OF
THIS CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
II. THE COURT SHOULD GRANT CERTIORARI
ON THE SECOND QUESTION PRESENTED
BECAUSE THE NINTH CIRCUIT’S DECISION
IGNORES THIS COURT’S PRECEDENT . . . . . 7
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ii
TABLE OF AUTHORITIES
CASES
Bell v. Wolfish,
441 U.S. 520 (1979). . . . . . . . . . . . . . . . . . . . . . . . 4
Estelle v. Gamble,
429 U.S. 97 (1976). . . . . . . . . . . . . . . . . . . . 8, 9, 10
Farmer v. Brennan,
511 U.S. 825 (1994). . . . . . . . . . . . . . . . . . . 7, 8, 10
Gibson v. Collier,
920 F.3d 212 (5th Cir. 2019). . . . . . . . . . . . . . . 3, 4
Hallett v. Morgan,
296 F.3d 732 (9th Cir. 2002). . . . . . . . . . . . . . . . . 6
Whitley v. Albers,
475 U.S. 312 (1986). . . . . . . . . . . . . . . . . . . 8, 9, 10
CONSTITUTION
U.S. Const. amend. VIII. . . . . . . . . . . . . . . . . . passim

1
IF THIS APPEAL IS NOT MOOT, THE COURT
SHOULD GRANT THE PETITION.
In the contemporaneously filed Suggestion of
Mootness, Petitioners inform the Court that this appeal
is now moot because the injunction at issue has been
fully and irrevocably carried out. Consequently, and
consistent with this Court’s standard practice, the
Court should dismiss the appeal as moot and vacate
those portions of the lower courts’ orders and judgment
that issued and affirmed the injunction against
Petitioners. Yet, in the event this appeal is not moot,
the Court should grant certiorari.
In her Brief in Opposition (“Opp.”), Respondent
suggests incorrectly that the appeal is not moot and
argues certiorari should be denied on other grounds.
Respondent primarily argues that the Ninth Circuit’s
decision is “fact-bound” and does not establish any farreaching legal principles that impact future cases. To
the contrary, as Judge O’Scannlain correctly pointed
out, “[f]ar from rendering an opinion ‘individual to
Edmo’ that ‘rests on the record,’ . . . , the panel
entrenches the district court’s unfortunate legal
errors . . . .” Appendix to the Petition (“App.”), 36
(citations omitted) (emphasis added). The Ninth
Circuit’s decision implicates broad constitutional
questions. Under the Ninth Circuit’s decision, prison
medical providers violate the Eighth Amendment when
they recommend treatment for gender dysphoria that
is contrary to the WPATH Standards, even though the
WPATH Standards are controversial and not
universally accepted in the medical community.

2
Moreover, the Ninth Circuit concluded that mere
medical malpractice constitutes an Eighth Amendment
violation when it held Dr. Scott Eliason was
deliberately indifferent without consideration of
whether he actually knew the recommended course of
treatment would be inappropriate and, further, without
consideration that Dr. Eliason balanced the competing
risks in deciding upon the course of treatment. These
new rules have broad constitutional implications and
conflict with the decisions reached by other circuit
courts and this Court.
I. P E T I T I O N E R S ’
FIRST
QUESTION
PRESENTED INVOLVES IMPORTANT
CONSTITUTIONAL ISSUES THAT REACH
FAR BEYOND THE SPECIFIC FACTS OF
THIS CASE.
On a fundamental level, the primary issue in this
case is whether a prison medical provider inflicts cruel
and unusual punishment when the provider
recommends a course of treatment for gender
dysphoria that is contrary to the WPATH Standards.
That question has arisen with increasing frequency in
circuit courts across the country. In the last few years,
the First, Fifth, Tenth, and Eleventh Circuits have all
concluded the answer is no. That is, a prison medical
provider who recommends a course of treatment
contrary to the WPATH Standards does not commit
cruel and unusual punishment. Petition for Writ of
Certiorari (“Petition”), 18-22. In direct contrast, the
district court and the Ninth Circuit held in this case
that the WPATH Standards set the constitutional
minima for the treatment of gender dysphoria in

3
prison. They did this by holding that Dr. Eliason
inflicted cruel and unusual punishment when he
recommended a course of treatment contrary to the
WPATH Standards and rejecting the testimony of
Defendants’ experts because their opinions were not
consistent with the WPATH Standards. App. at 111,
117 (holding the district court “appropriately used [the
WPATH Standards] as a starting point to gauge the
credibility of each expert’s testimony” and holding Dr.
Eliason inflicted cruel and unusual punishment when
he “did not follow [the WPATH Standards] in rendering
his decision”).
Respondent unsuccessfully tries to distinguish the
Ninth Circuit’s decision from the decisions reached by
other circuit courts. For example, Respondent attempts
to distinguish the Fifth Circuit’s decision in Gibson v.
Collier, 920 F.3d 212 (5th Cir. 2019) from this case
because it involved a blanket policy ban on sex
reassignment surgery (“SRS”).1 Opposition, 24. But, in
that case, the Fifth Circuit held that a blanket ban on
sex reassignment surgery was acceptable under the
Eighth Amendment and reasoned that courts should
not take sides in the ongoing medical debate regarding
the treatment of gender dysphoria. Gibson, 920 F.3d at
220-21. That the Fifth Circuit took its analysis one step
further and held that sex reassignment surgery is not
required by the Eighth Amendment does not render the
Fifth Circuit’s refusal to adopt the WPATH Standards
as constitutional minima any less meaningful. Id. at
215. Moreover, the conflict with the Fifth Circuit comes
1

Another term for “sex reassignment surgery” (“SRS”) also used by
the lower courts is “gender confirmation surgery” (“GCS”).

4
to a head when it directly addressed the injunction
issued in this case and stated, “the judgment of the
district court in Edmo should not survive appeal.”
Gibson, 920 F.3d at 225. Thus, the Ninth Circuit’s
decision in this case created a clear circuit split.
Respondent’s attempt to distinguish this Court’s
decision in Bell v. Wolfish, 441 U.S. 520 (1979) is
similarly unavailing. In Bell, this Court held that while
standards promulgated by professional groups and
organizations, such as WPATH, “may be instructive in
certain cases, they simply do not establish the
constitutional minima; rather, they establish goals
recommended by the organization in question.” 441
U.S. at 543 n. 27 (rejecting the argument that prison
personnel must follow the standards set forth in the
American Public Health Association’s Standards for
Health Services in Correctional Institutions).
Respondent argues that the Ninth Circuit merely held
the WPATH Standards were “instructive.” Opp. 27.
Respondent misconstrues the Ninth Circuit’s decision.
The Ninth Circuit explicitly held that the WPATH
Standards were the “starting point.” The Ninth
Circuit’s analysis has rendered any treatment
recommendation that contradicts the WPATH
Standards a violation of the Eighth Amendment. App.
at 111 and 117. Thus, the Ninth Circuit’s decision
violates Bell.
Respondent wrongly claims the lower courts did not
hold the WPATH Standards constitute the
constitutional minima for the treatment of gender
dysphoric inmates. In fact, Dr. Eliason’s supposed
failure to follow the WPATH Standards was the exact

5
reason given by the district court for concluding Dr.
Eliason was deliberately indifferent:
Defendants’ sole evaluation of Ms. Edmo for
surgery prior to this lawsuit failed to accurately
apply the WPATH Standards of Care.
Specifically, Dr. Eliason’s assessment that Ms.
Edmo did not meet medical necessity for surgery
did not apply the WPATH criteria.
App. at 195. On appeal, the Ninth Circuit likewise held
that a prison medical provider violates the Eighth
Amendment if the provider’s treatment
recommendation “contradicts” or “d[oes] not follow” the
WPATH Standards. App. 113, 117 (“Dr. Eliason . . . did
not follow the accepted standards of care in the area of
transgender health care, nor did he reasonably deviate
from or flexibly apply them.”). Thus, under the Ninth
Circuit’s flawed decision, the WPATH Standards are
the constitutional minima.
Respondent also wrongly suggests that Petitioners
conceded before the lower courts that the WPATH
Standards constitute the applicable standard of care.
Opp. at 14. Petitioners neither contended nor admitted
that prison medical doctors were required to base their
treatment decisions on the WPATH Standards. Rather,
Petitioners presented evidence and repeatedly argued
at the district court and on appeal that the WPATH
Standards did not represent a controlling, or even
reliable, standard of care.2 See Petition, at 18 n. 7; see
2

Respondent also misrepresents that all the expert witnesses
endorsed the WPATH Standards as the applicable standard of
care. Petitioners’ expert, Dr. Garvey, identified the WPATH

6
also ER 1003 (Tr. 25:19-21) (“Now, we need to
understand when surgery is appropriate. There are no
universal standards out there. The area here is rapidly
evolving.”); ER 084 (“Given the flexibility of the
WPATH guidelines and their deficiencies, medical and
mental health providers can look to other resources of
guidance on providing treatment and care.”); ER 3388
(“Corizon Defendants [including Dr. Eliason] dispute
that the WPATH establishes the applicable standard of
care in treating [gender dysphoric] patients and, more
specifically, in treating Plaintiff.”); ER 381-82 (Tr.
687:25-688:1) (“There is a lack of clarity as to the
applicability of standards and how to apply them in the
correctional setting.”); Def.-Appellants’ Jt. Opening Br.,
No. 19-35019 (9th Cir. Mar. 6, 2019), Dkt. 13, at 45-46).
Therefore, contrary to Respondent’s assertions,
Petitioners have maintained throughout this case that
the WPATH Standards are not the accepted standard
of care, let alone the constitutional minima for the
treatment of gender dysphoria.
Finally, Respondent incorrectly argues the Ninth
Circuit’s opinion “turned not on the WPATH
Standards, but on deference to ‘the district court’s
extensive factual findings.’” Opp. at 2. Not so. “[T]he
district court’s conclusion that the facts . . .
demonstrate an Eighth Amendment violation is a
question of law that [the Ninth Circuit] review[s] de
novo.” Hallett v. Morgan, 296 F.3d 732, 744 (9th Cir.

Standards’ shortcomings and testified that this supported looking
to other resources and the exercise of medical judgment. ER 22528 (Tr. 531:5-534:7). WPATH is far from being universally adopted
as Respondent would like this Court to believe.

7
2002). Thus, the district court’s conclusion that failing
to follow the WPATH Standards constituted cruel and
unusual punishment was subject to no deference. The
fatal error in the Ninth Circuit’s analysis was the
game-changing legal standard that it adopted and
applied to the district court’s factual findings. The
Ninth Circuit’s holding that prison medical care that
conflicts with the WPATH Standards violates the
Eighth Amendment is not limited to the specific facts
of this case. By using the WPATH Standards to set the
constitutional minima for treatment of gender
dysphoria in constitutional claims, the Ninth Circuit
created a circuit split and adopted law that is contrary
to this Court’s precedents. The Ninth Circuit’s new
legal standard will be applied throughout the Circuit in
case after case, regardless of the individual facts of
each case. This Court should grant certiorari.
II. THE COURT SHOULD GRANT CERTIORARI
ON THE SECOND QUESTION PRESENTED
BECAUSE THE NINTH CIRCUIT’S DECISION
IGNORES THIS COURT’S PRECEDENT.
The Ninth Circuit and Respondent ignore the
bedrock tenets of this Court’s Eighth Amendment
jurisprudence. “The Eighth Amendment does not
outlaw cruel and unusual ‘conditions’; it outlaws cruel
and unusual ‘punishments.’” Farmer v. Brennan, 511
U.S. 825, 837 (1994). Consequently, “a complaint that
a physician has been negligent in diagnosing or
treating a medical condition does not state a valid
claim of medical mistreatment under the Eighth
Amendment. Medical malpractice does not become a
constitutional violation merely because the victim is a

8
prisoner.” Estelle v. Gamble, 429 U.S. 97, 106 (1976).
Instead, medical treatment violates the Eighth
Amendment only if the medical provider displays
deliberate indifference to a prisoner’s serious illness or
injury. Id.
A medical provider displays deliberate indifference
only if the provider “knows of and disregards an
excessive risk to inmate health or safety; the [provider]
must both be aware of facts from which the inference
could be drawn that a substantial risk of serious harm
exists, and [the provider] must also draw the
inference.” Farmer, 511 U.S. at 837. In other words, the
plaintiff must show that the provider acted with
“subjective recklessness.” Id. at 839-40. A good faith
belief that medical care is appropriate immunizes a
medical provider from liability under the Eighth
Amendment. Whitley v. Albers, 475 U.S. 312, 319
(1986).
A complete failure to treat a prisoner’s serious
medical need may demonstrate subjective recklessness.
Estelle, 429 U.S. at 103. However, choosing between
alternative treatment options, even if that decision is
objectively wrong, “does not represent cruel and
unusual punishment.” Id. at 107 (“[T]he question
whether . . . additional diagnostic techniques or forms
of treatment is indicated is a classic example of a
matter for medical judgment.”). As a result, negligently
refusing to provide treatment, even when that
treatment would alleviate “the daily pain and suffering
[the prisoner] was experiencing” does not violate the
Eighth Amendment. Id. “At most it is medical

9
malpractice, and as such the proper forum is the state
court . . . .” Id.
Contrary to this Court’s precedent, the Ninth
Circuit held Dr. Eliason was deliberately indifferent
merely because his treatment recommendation
conflicted with the WPATH Standards. Petition at
25–33. Critically, the district court and the Ninth
Circuit never determined Dr. Eliason was subjectively
aware that sex reassignment surgery was the only
medically-appropriate treatment option for Ms. Edmo.
Indeed, the Ninth Circuit held that Defendants
“misstate[d] the standard” when Defendants argued
Dr. Eliason did not act with deliberate indifference
because he did not know the “recommended course of
treatment was medically inappropriate.” App. at 122.
Under the Ninth Circuit’s flawed reasoning, a prison
medical provider who recognizes a serious medical need
but then negligently provides treatment3 violates the
Eighth Amendment. The Ninth Circuit’s holding is
directly contradicted by this Court’s precedent: “It is
obduracy and wantonness, not inadvertence or error in
good faith, that characterize the conduct prohibited by
the Cruel and Unusual Punishments Clause, whether
that conduct occurs in connection with establishing
conditions of confinement, supplying medical needs, or
restoring official control over a tumultuous cellblock.”
Whitley, 475 U.S. at 319.

3

Petitioners do not admit Dr. Eliason’s care was negligent and, in
fact, contend it was medically appropriate.

10
In support of the Ninth Circuit’s misguided legal
standard, Respondent cites Farmer for the proposition
that a prison official need not know that harm actually
will befall the inmate as long as the prison official
knows of a significant risk of harm. Opp. at 29–30.
Respondent’s argument completely misses the point. In
Farmer, this Court distinguished between knowledge
of certain harm and knowledge of a significant risk of
harm. Farmer, 511 U.S. at 842. This Court held that
knowledge of certain harm is not required to show an
Eighth Amendment violation—“it is enough that the
official acted or failed to act despite his knowledge of a
substantial risk of serious harm.” Id. Consequently, in
the medical context, the inquiry is whether the medical
provider knew the recommended course of treatment
created “a substantial risk of harm” to the inmate
compared to an alternative treatment. But the prison
medical provider must actually know that the
recommended course of treatment creates such a risk
compared to an alternative course of treatment;
negligence is not enough. See id. (holding “the
[provider] must both be aware of facts from which the
inference could be drawn that a substantial risk of
serious harm exists, and [the provider] must also draw
the inference”) (emphasis added)); Whitley, 475 U.S. at
319. As this Court has clearly stated, “[m]edical
malpractice does not become a constitutional violation
merely because the victim is a prisoner.” Estelle, 429
U.S. at 106. The Ninth Circuit’s decision contradicted
this precedent.
Recognizing the weakness of her argument,
Respondent makes an extraordinary misrepresentation
of the record by claiming “the district court found that

11
Dr. Eliason knew of the substantial ‘risks of not
providing GCS [gender confirmation surgery] to Ms.
Edmo,’ including ‘surgical self-treatment, emotional
decompensation, and risk of suicide given her high
degree of suicide ideation.’” Opp. at 30. Respondent is
flatly wrong; that finding is nowhere in the district
court’s order despite Respondent’s attempt to create it
out of whole cloth. The district never found Dr. Eliason
knew of those risks; the district court merely found
that those risks were present in the abstract. App. at
183. In other words, the district court never found that
Dr. Eliason knew his treatment recommendation of
hormone therapy and counseling created a significant
risk of harm compared to the alternative of sex
reassignment surgery. The Ninth Circuit attempted to
rectify the district court’s error and, in doing so,
created a significantly watered-down Eighth
Amendment standard that directly conflicts with this
Court’s precedent. Thus, the Court should grant
certiorari.
CONCLUSION
This appeal is now moot because the injunction at
issue has been fully and irrevocably carried out. Thus,
pursuant to this Court’s standard practice, the Court
should vacate the lower courts’ orders and judgment
against the Petitioners as requested in the Suggestion
of Mootness. In the alternative, in the event the appeal
is not moot, this Court should grant Certiorari. The
Ninth Circuit’s decision creates new constitutional
standards that will apply in many future
cases—standards that conflict with decisions reached

12
by other circuit courts and with this Court’s prior
precedent.
Respectfully submitted,
DYLAN A. EATON
J. KEVIN WEST
BRYCE JENSEN
PARSONS BEHLE & LATIMER
800 West Main Street
Suite 1300
Boise, Idaho 83702
Counsel for Petitioner
Scott Eliason, M.D.

August 24, 2020

LAWRENCE G. WASDEN
Attorney General State of Idaho
BRIAN KANE
Assistant Chief Deputy
MEGAN A. LARRONDO
Deputy Attorney General
BRADY J. HALL
Special Deputy Attorney General
Counsel of Record
MOORE ELIA KRAFT & HALL, LLP
P.O. Box 6756
Boise, Idaho 83707
(208) 336-6900
brady@melawfirm.net
Counsel for Petitioners
the Idaho Department of Correction
and Henry Atencio, Jeff Zmuda,
and Al Ramirez, in their official
capacities

